1. APPENDIX
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-40142
Summary Calendar
MARCH 6. 2019
JOE BLESSETT,
Plaintiff-Appellant
v.

TEXAS OFFICE OF THE ATTORNEY GENERAL
GALVESTON COUNTY CHILD SUPPORT
ENFORCEMENT DIVISION,
Defendant-Appellee
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 3:17-CV-164
Before DENNIS, CLEMENT, and OWEN,
Circuit Judges.
PER CURIAM:*
Joe Blessett, proceeding pro se, appeals the
district court’s dismissal of his civil complaint for
lack of subject matter jurisdiction pursuant to the
Rooker-Feldman1 2 doctrine. He argues that the
Rooker-Feldman doctrine is inapplicable because
* Pursuant to 5TH CIR. R. 47.5, the court has determined that
this opinion should not be published and is not precedent
except under the limited circumstances set forth in 5TH CIR. R.
47.5.4.
2 Rooker u. Fidelity Trust Co., 263 U.S. 413 (1923); District of
Columbia Court of Appeals u. Feldman, 460 U.S. 462 (1983).

2. APPENDIX
he did not receive notice of any of the judicial acts
entered against him in state court and because he
is seeking to set aside state court judgments
obtained by extrinsic fraud. Blessett also complains
that the district court erroneously denied his
motions for entry of a default judgment and his
motion for leave to file an amended complaint.
We review the grant of a Federal Rule of Civil
Procedure 12(b)(1) motion to dismiss for lack of
jurisdiction de novo. Lane v. Halliburton, 529 F.3d
548, 557 (5th Cir. 2008). In reviewing the dismissal
order, we view “the well-pled factual allegations of
the complaint as true” and construe them “in the
light most favorable to the plaintiff.” Id.
The Rooker-Feldman doctrine dictates that
federal district courts lack subject matter
jurisdiction over lawsuits that effectively seek to
“overturn” a state court ruling. Exxon Mobil Corp.
v. Saudi Basic Indus. Corp., 544 U.S. 280, 291
(2005). The doctrine applies to “cases brought by
state-court losers complaining of injuries caused by
state-court judgments rendered before the district
court proceedings commenced and inviting district
court review and rejection of those judgments.” Id.
at 284.
Our review of the complaint reveals that Blessett
asserted claims that collaterally attack the state
court divorce decree and judgments concerning
paternity and child support, as well as claims that
assert constitutional violations relating to the
enforcement of the state child support judgments.
The former claims are barred under the RookerFeldman doctrine because they “invit[e] district
court review and rejection” of the state divorce
decree and child support judgments. See Exxon
Mobil, 544 U.S. at 284. Moreover, it is of no help to

3. APPENDIX
Blessett that he claims he failed to receive notice of
any hearing in relation to the child support
arrearage judgment of July 13, 2015, as
[constitutional
questions
arising in
state
proceedings are to be resolved by the state courts.”
Liedtke v. State Bar of Tex., 18 F.3d 315, 317 (5th
Cir. 1994).
We reach a different result as to Blessett’s claims
that the defendant and its “contractors” engaged in
fraud and violated his constitutional rights in their
efforts to enforce and collect the state child support
judgments. Because such claims do not ask the
district court to review and reject a final order of a
state court, they are not barred under the RookerFeldman doctrine. See Truong u. Bank of Am., N.A.,
717 F.3d 377, 382-84 (5th Cir. 2013). Accordingly,
we vacate the dismissal of such claims and remand
to the district court.
As noted, Blessett also challenges the district
court’s denial of his motions for entry of default
judgment against the defendants based on their
failure to answer his amended complaint. This
challenge ignores that the district court denied
leave to file the amended complaint, and thus the
defendants were under no obligation to respond to
an unfiled pleading. See Fed. R. CIV. P. 12(a)(1)(A).
Accordingly, the district court did not abuse its
discretion in denying Blessett’s motions for entry of
a default judgment against the defendants. See
Lewis v. Lynn, 236 F.3d 766, 767 (5th Cir. 2001).
In view of the above determinations, it is
unnecessary to consider Blessett’s arguments
concerning the district court’s denial of his motion
seeking leave to file an amended complaint.
AFFIRMED IN PART, VACATED IN PART,
AND REMANDED.

4. APPENDIX

APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT
OF TEXAS GALVESTON DIVISION
AUGUST 27. 2019
JOE BLESSETT,
Plaintiff,
CIVIL ACTION NO. 3:17-CV-00164
VS.
TEXAS OFFICE OF THE ATTORNEY
GENERAL GALVESTON COUNTY CHILD
SUPPORT ENFORCEMENT DIVISION,
Defendant.
MEMORANDUM OPINION AND ORDER
Before the Court is the Office of the Attorney
General Texas Child Support Division’s (the
“OAG”) Motion to Dismiss. Dkt. 79. After reviewing
the motion, the response, the reply, and the
applicable law, the Court GRANTS the motion.
Prior
Factual
Background
and
Proceedings
On July 23, 1999, a Galveston County court
entered a Final Decree of Divorce between the
Plaintiff, Joe Blessett (“Blessett”), and Beverly
Garcia (“Garcia”). Dkt. 21-1. The court also
established Blessett’s paternity over a child born
during the marriage and ordered him to pay child
support payments of $800 each month. Id. After
Blessett consistently defaulted on this child
support obligation for sixteen years, the county

5. APPENDIX
court entered an order in favor of Garcia
confirming child support arrearage in the amount
of $131,923.14. Dkt. 21-2.
Almost two years later, Blessett attempted to
challenge the child support order by filing a “Notice
of Disestablishment of Paternity [and] Demand for
Dismissal Pursuant to
Sec. 466 42. U.S.C. § 666 5(D)(iii) Fraud and
Duress” with the same county court. Dkt. 21-3.
After review, the county court denied Blessett’s
“[d]emand for [dismissal” of the child support
order. Dkt. 21-4. In response, Blessett filed the
exact same “[d]emand for [dismissal” as his
complaint in this case against the OAG and the
“lead attorney” for the OAG in her official capacity,
Diana M. Morton (“Morton”).3 4 See Dkt. 1 (for the
complaint in this case); c.f. Dkt. 21-3 (for the
“[d]emand for [dismissal” filed in state court). On
February 12, 2018, this Court dismissed Blessett’s
complaint under the Rooker-Feldman doctrine,
3

See Dkt. 4 (Diana M. Morton was individually served
with process in this suit as the "lead attorney" for the OAG);
see also Garden State Elec. Inspection Servs., Inc. v. Levin, 144 F.
App'x 247, 251 (3d Cir. 2005) (To determine whether a
Plaintiff intended to sue a party in their official, as opposed
to individual, capacity the Courts must look to the "course of
proceedings." Evidence that (1) the complaint listed the state
as well as the individual employee as a defendant, and (2)
that the employee never asserted the defense of qualified
immunity favors a finding that the employee was sued in their
official capacity. Both of these factors were satisfied in this
case, therefore the Court finds that Morton was sued in her
official capacity.).
4 Dkt. 73 at 2-3 (Specifically, the Fifth Circuit held that
Blessett had plead claims that "[the OAG] and its
'contractors' engaged in fraud and violated [Blessett's]
constitutional rights in their efforts to enforce and collect
the state child support judgments," which were not
foreclosed by the Rooker-Feldman doctrine.).

6. APPENDIX
because the Court lacked subject matter
jurisdiction to collaterally review a state court
Judgment. Dkt. 60.
On appeal, the Fifth Circuit affirmed the
Court’s judgment in part and vacated it in part.
Although the Fifth Circuit agreed that the Court
had properly dismissed Blessett’s attempts to
collaterally attack the state court divorce decree
and child support order, it found that Blessett’s
pleadings asserted additional, independent, claims
in the attempted enforcement and collection of the
child support order. Theses claims, the Fifth
Circuit held, were within the Court’s subject
matter jurisdiction. Dkt. 73. Accordingly, the case
was remanded to this Court to adjudicate Blesset’s
claims concerning fraud in the attempted
enforcement and collection of the state child
support judgments. Id. All other claims, including
those concerning the deprivation of due process in
state court, were dismissed from this case. Id. at 2
(“Moreover, it is of no help to Blessett that he
claims he failed to receive notice of any hearing in
relation to the child support arrearage judgment of
July 13, 2015, as constitutional questions arising
in state proceedings are to be resolved by the state
courts.”).
In light of the Fifth Circuit’s order, the Court
allowed Blessett an opportunity to amend his
complaint. Dkt. 75. The OAG now moves to dismiss
Blessett’s amended complaint under Federal Rules
of Civil Procedure 12(b)(1) and 12(b)(6). Dkt. 79.
For the reasons stated below, the Court finds that
Blessett’s federal law claims must be dismissed on
12(b)(1) grounds. See Hitt v. Pasadena, 561 F.2d
606, 608 (5th Cir. 1977) (“Ordinarily, where both
these grounds for dismissal apply, the court should

7. APPENDIX
dismiss only on the jurisdictional ground under
Fed.R.Civ.P. 12(b)(1), without reaching the
question of failure to state a claim under
Fed.R.Civ.P. 12(b)(6).”). The Court declines to
exercise supplemental jurisdiction as to Blessett’s
remaining state law claims. Accordingly, this case
is dismissed in its entirety.
Standard of Review
“[Fjederal courts are courts of limited
jurisdiction.” Hashemite Kingdom of Jordan v.
Layale Enters. (In re B- 727 Aircraft), 272 F.3d 264,
269 (5th Cir. 2001). Thus, a federal district court is
required to presume that it does not have the
jurisdiction to rule on a matter until “the party
asserting jurisdiction” can prove otherwise.
Griffith v. Alcon Research, Ltd., 712 F. App’x 406,
408 (5th Cir. 2017) (internal quotation marks
omitted). To make its case, the party asserting
jurisdiction may direct the Court to look at “(1) the
complaint alone; (2) the complaint supplemented
by undisputed facts evidenced in the record; or (3)
the complaint supplemented by undisputed facts
plus the court’s resolution of disputed facts.”
Ramming v. United States, 281 F.3d 158, 161 (5th
Cir. 2001). Ultimately, a court cannot dismiss a
claim for lack of subject matter jurisdiction unless
“it appears certain that [a party] cannot prove any
set of facts” in support of its assertion that
jurisdiction is appropriate in federal court.
Bombardier Aero. Emple. Welfare Benefits Plan v.
Ferrer, Poirot & Wansbrough, P.C., 354 F.3d 348,
351 (5th Cir. 2003).
Analysis
Construing Blessett’s amended complaint
liberally, Blessett asserts causes of action against
the OAG and Morton for fraud,3 intentional

8. APPENDIX
misrepresentation,4 and the deprivation of
constitutional rights under color of state law
pursuant to 42 U.S.C. § 1983.5 SeeKocurek v. Cuna
Mut. Ins. Soc’y, 459 F. App’x 371, 373 (5th Cir.
2012) (District courts are to construe a Plaintiffs
complaint liberally). However, the Eleventh
Amendment’s grant of sovereign immunity bars
Blessett from asserting his § 1983 claim against
either the OAG or Morton. Obligated to dismiss
Blessett’s only federal claim against non-diverse
defendants, the Court declines to exercise
supplemental
jurisdiction
over
Blessett’s
remaining state law claims. De Sanchez v. Banco
Cent, de Nicaragua, 770 F.2d 1385, 1389 (5th Cir.
1985) (“If sovereign immunity exists, then the court
5 6 7 lacks., .subject matter jurisdiction to hear the
case and must enter an order of dismissal.”); see
also 28 U.S.C. § 1367(c) (A district court may
decline to exercise supplemental jurisdiction if “the
district court has dismissed all claims over which it
has original jurisdiction.”).
A.
Eleventh Amendment Grant of
Sovereign Immunity
The Supreme Court has held the Eleventh
5
See Dkt. 75 at 6 (Count one: "Fraud by the omission
of federal statutes and Texas family codes"); see also id. at
13 (The OAG and its contractors committed "fraud against
the Plaintiff every time they applied enforcement and
collection for child support order under Title IV-D.")
6
See id. at 31 (The OAG and its contractors "20-year
period of repeated efforts to force Mr. Blessett in the Title
IV- D program by coercion, deception, and concealment
interferes with his legal rights to enjoy his Final Divorce
Decree.") (Italics added).
7
See id. at 13 (The OAG and its contractors "deprived
the Plaintiff's protected civil rights in the application of
penalties that are not expressly granted within the Final
divorce decree granted on July 23,1999").

9. APPENDIX
Amendment provides “an unconsenting State [with
immunity] from suits brought in federal courts by
her own citizens as well as by citizens of another
state.” Pennhurst State Sch. & Hosp. v.
Halderman, 465 U.S. 89, 100 (1984); see U.S.
Const, amend. XI. “There are only two exceptions
to this longstanding rule.” Pace v. Bogalusa City
Sch. Bd., 325 F.3d 609, 613 (5th Cir. 2003), aff’d,
403 F.3d 272 (5th Cir. 2005). The first, is if
Congress abrogates a state’s sovereign immunity to
suit pursuant to its “power [under § 5] of the
Fourteenth Amendment.” Coll. Sav. Bank v. Fla.
Prepaid Postsecondary Educ. Expense Bd., 527 U.S.
666, 670 (1999). And the second, is if a state decides
to “waive its sovereign immunity by consenting to
suit.” Id. Absent the presence of either of these two
circumstances, a plaintiff cannot sue a state—or
any of its agencies—in federal court. See Pennhurst
State Sch. & Hosp., 465 U.S. at 100 (“[A] suit in
which the State or one of its agencies or
departments is named as the defendant is
proscribed by the Eleventh Amendment.”); see also
Sw. Bell Tel. Co. v. City of El Paso, 243 F.3d 936,
937-38 (5th Cir. 2001) (“[T]he Eleventh
Amendment bar to suit in federal courts” applies to
state agencies that act as an “arm of the state.”).
Eleventh
in
nature,
Comprehensive
Amendment protection also extends to individual
state employees who are sued in their official
capacity. See Will v. Mich. Dep’t of State Police, 491
U.S. 58, 70-71 (1989). This is because “a suit
against a state official in his or her official capacity
is not a suit against the official but rather is a suit
against the official’s office.” Id. “As such, it is no

10. APPENDIX
different from a suit against the State itself.”8 Id.
Accordingly, the same sovereign immunity
protections apply to state employees acting in their
official capacity as the state itself—“particularly
when [not having] such a rule would allow [a
plaintiff] to circumvent congressional intent by a
mere pleading device.” Id.
B.
The OAG and Morton Enjoy
Sovereign Immunity from this Suit
In Texas, the OAG is the agency designated by
the state to “to enforce child support orders and
collect and distribute support payments.” Office of
the AG v. Scholer, 403 S.W.3d 859, 861-62 (Tex.
2013) (“Title IV, Part D, of the Social Security Act
requires each state to designate an agency to
enforce child support orders.”). “And it is clear that
[the] OAG’s [various] child support division [s are]
merely Q departments] within that agency.” Baker
v. Child Support Div., No. 3:18-cv-341-C-BN, 2018
U.S. Dist. LEXIS 172600, at *14 (N.D. Tex. Sept.
18, 2018); see also Jeter v. Child Support Div., No.
3:18-CV-273-L-BH, 2018 U.S. Dist. LEXIS 201309,
8
In Ex Parte Young, the Supreme Court acknowledged
a narrow exception to the general rule granting sovereign
immunity to state employees who have been sued in their
official capacity, however that exception does not apply
here because Blessett does not argue that Texas' child
support laws are unconstitutional nor does he request
prospective relief. See Okpalobi v. Foster, 244 F.3d 405, 411
(5th Cir. 2001) ("The Eleventh Amendment bars suits by
private citizens against a state in federal court,
irrespective of the nature of the relief requested. A
plaintiff may not avoid this bar simply by naming an
individual state officer as a party in lieu of the State. Yet,
few rules are without exceptions, and the exception to this
rule allows suits against state officials for the purpose of
enjoining the enforcement of an unconstitutional state
statute.") (internal citations omitted).

11. APPENDIX
at *8 n.4 (N.D. Tex. Nov. 5, 2018) (for the same
holding). Therefore, the OAG, its various child
support divisions, and its official employees,
maintain Eleventh Amendment immunity from
suit. Id. (holding the same); see also Hall v. Tex.
Comm 'n on Law Enf’t, 685 F. App’x 337, 340 (5th
Cir. 2017) (state agencies and their departments
are “entitled to sovereign immunity to the same
extent as the state itself.”).
Here, none of the exceptions apply, which would
allow Blessett to overcome this grant of sovereign
immunity and sue the OAG or Morton in her
official capacity for violating § 1983. “Texas has not
consented to suit [under § 1983].” Aguilar v. Tex.
Dep’t of Criminal Justice, Institutional Div., 160
F.3d 1052, 1054 (5th Cir. 1998). Nor has Congress
“Eleventh
Amendment
Texas’
abrogated
immunity” under “section 1983.” Champagne v.
Jefferson Parish Sheriff’s Office, 188 F.3d 312, 314
(5th Cir. 1999). Therefore, Blessett’s § 1983 claims
against the OAG and Morton are barred and must
be dismissed.
C.
Remand
Having dismissed Blessett’s § 1983 claim, the
only claims that remain before the court are
Blessett’s Texas state law claims for fraud and
intentional misrepresentation. Dkt. 75. In
adherence to the “general rule,” the Court declines
to exercise supplemental jurisdiction over these
remaining state-law claims since all federal-law
claims have been eliminated. Alphonse v. Arch Bay
Holdings, L.L.C., 618 F. App’x 765, 769 (5th Cir.
2015) (“As a general rule, a court should decline to
exercise jurisdiction over remaining state-law
claims when all federal-law claims are eliminated
before trial.”) (internal quotations omitted).

12. APPENDIX
Conclusion
For the foregoing reasons, the Defendants’
Motion to Dismiss (Dkt. 79) is GRANTED and all
claims asserted by Blessett in this matter are
DISMISSED WITHOUT PREJUDICE. All
pending motions are hereby DENIED AS MOOT.
This is a FINAL JUDGMENT.
SIGNED at Galveston, Texas, this 27th day of
August, 2019.

George C Hanks Jr.
United States District Judge

13. APPENDIX
APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
GALVESTON DIVISION
CIVIL ACTION NO. 3:17-CV-164
JANUARY 27. 2020
JOE BLESSETT,
PLAINTIFF,
VS.
TEXAS OFFICE OF THE ATTORNEY GENERAL
GALVESTON COUNTY CHILD SUPPORT
ENFORCEMENT DIVISION,
DEFENDANT.
ORDER
Pending before the court is Plaintiffs Motion
to Amend Judgment under Federal Rule of Civil
Procedure 59(e). Dkt. 96. A Rule 59(e) motion is “an
extraordinary remedy that should be used
sparingly.” Deep Fix, LLC v. Marine Well
Containment Co., LLC, No. H-18-0948, 2019 WL
4221298, at *2 (S.D. Tex. Sept. 5, 2019) (Rosenthal,
C.J.). It is “not the proper vehicle for rehashing
evidence, legal theories, or arguments that could
have been offered or raised before the entry of
judgment.” Templet v. Hydrochem, Inc., 367 F.3d
473, 479 (5th Cir. 2004). Instead, it serves the
narrow purpose of allowing a party to bring errors
or newly discovered evidence to the Court’s
attention. See In re Rodriguez, 695 F.3d 360, 371
(5th Cir. 2012).

14. APPENDIX
In his motion, Plaintiff asks the court to
reconsider its dismissal of his claims under a new
legal theory. Because the motion does not meet the
high bar that Rule 59(e) requires, I find no reason
to revisit this court’s previous decision. Plaintiffs
Motion to Amend Judgment under Federal Rule of
Civil Procedure 59(e) is DENIED.
SIGNED at Galveston, Texas, the 27th day
of January, 2020.
JEFFREY VINCENT BROWN
UNITED STATES DISTRICT JUDGE

